                                                                                                                             i

                                                                                       NATIONAL SCIENCE FOUNDATION
                                                                                                 4201 WILSON BOULEVARD
                                                                                                ARLINGTON, VIRGINIA 22230
                                                                                                                                    Case ~ l o s e o u t C I I I I ,
                                                                                                                                                    Page 1 of 1




                                                  0FFICE.OF '
                                             INSPECTOF1GENERAL



                                            MEMORANDUM

                                            Date:                   March 28,2000                 .   '




                                            To:                                                                                                       I




                                            From:                                                                       1 for Investigations          "

                                                                                                                                                          4
                                            Re:                     Case close-ouh-


                                                     We received a allegation concerning an possible conflict of interest violrniob
                                             involvinn          h         o is a former NSF employee. -          Counsel to the Inspector ~ e i e r a l
                                                                                                                 -



                     ,.   .   .   .     ,   . s e v i e ~ - d . . t hand~ ~determined
                                                                               n             that-the one-year post-employm~entrestrictition. . .~            ,.   ..
                                                                                                                                                                            ,    .
                                                                                                                                                                                     .   . . .-.

                                             waiver which was granted to -was                        within the discretion of NSF General
. ....-u...... ...--."        ...----                  . .
                                                       .    . -. -
                                                           .-   .   ..-- . -- - - .- -..
                                                                     .   ..   .-   .   . . ..- .ete-
                                                                                           ..         .-. .-fia-lm~3jsTo-~n                                             .   ..            -..      -'. ..
                                             Counsel.'' rreviewea €he alegation and d
                                             investigation. This case is closed.
